      
   

March 17, 2021

Clerk

Supreme Court of the United States
1 First Street, NE

Washington, D.C. 20002

RE: REGINA B. HEISLER, INDIVIDUALLY AND AS THE EXECUTRIX OF THE
SUCCESSION OF FREDERICK P. HEISLER V. GIROD LOANCo, LLC

Dear Sir or Madam:

As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari referenced above contains 7,745 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Sincerely,

Jack Suber, Esq. }

Principal

LISA KAY NICHOLSON | Swom and subscribed before me this 17th day cf March 2021.
< Notary Public
State of Maryland

4 ’ ytfontgamery County
